DATE:          Jan 13, 1999

FROM:          June Gibbs Brown
               Inspector General

SUBJECT:	      Chiropractic Services Covered by Medicare Managed Care Organizations (OEI-
               04-97-00494)

TO:	           Nancy-Ann Min DeParle
               Administrator
               Health Care Financing Administration

This report describes policies and practices for providing chiropractic services to Medicare
enrollees in seven managed care organizations (MCOs). It was prepared in response to a
request by Health Care Financing Administration (HCFA) staff.

BACKGROUND

We recently completed an inspection on controls over chiropractic services for Medicare and
Medicaid beneficiaries (OEI-04-97-00490). As part of that inspection, we surveyed the 10
largest Medicare MCOs from 10 different States.

Seven of the 10 MCOs responded to our survey and provided information on their chiropractic
policies and practices for Medicare beneficiaries. However, the seven MCOs did not respond in
time for us to incorporate their data into our report on controls over chiropractic services.
Further, only four of the seven provided utilization data showing the extent that they had
provided chiropractic services for their Medicare enrollees for 1995 and 1996.

Following issuance of the report on controls over chiropractic services, HCFA staff requested
that we provide them information on chiropractic services in the seven MCOs that responded to
our survey. The seven MCOs represent a limited sample, and we do not present their policies
and practices for providing chiropractic services as being representative of all MCOs. In order
to project nationally, we would need to analyze a statistically projectable random sample. The
HCFA staff, however, said that a report on the seven MCOs would enhance their understanding
of MCO policies and practices for providing chiropractic services. They were particularly
interested in comparing Medicare MCO and fee for service (FFS) utilization data.

SCOPE AND METHODOLOGY

This report is based largely on data provided by the seven MCOs that responded to our survey.
We followed up survey responses and interviewed officials at each MCO, by telephone, to
clarify policies and practices as appropriate. Four of the seven MCOs provided chiropractic
Page 2 - Nancy-Ann Min DeParle

utilization data for 1995 and 1996. We compared this utilization data to that for FFS
organizations. We obtained FFS utilization data from HCFA’s Part B Extract and Summary
System data base and a 1 percent sample of HCFA’s National Claims History File. Additionally,
we identified the number of Medicare beneficiaries enrolled in FFS programs from HCFA’s Data
Compendiums.

UTILIZATION

In the four MCOs that provided utilization data, the percentage of Medicare MCO beneficiaries
who used chiropractic services was low, as compared with Medicare FFS chiropractic
utilization. For example, in 1996, about 1.5 percent of Medicare MCO beneficiaries used
chiropractic services. In contrast, more than 4 percent of Medicare FFS beneficiaries utilized
chiropractic services during the same time period.

Utilization data presented by the four MCOs showed that, on average, Medicare MCO
beneficiaries obtained slightly more chiropractic treatments per year than did FFS Medicare
beneficiaries. To illustrate, Medicare MCO beneficiaries received almost 12 chiropractic
treatments per year for 1996, whereas Medicare FFS beneficiaries received almost 9 treatments.

The table below summarizes utilization data for the four MCOs and Medicare FFS programs.

                             Medicare Chiropractic Utilization
                                             1995                            1996
                                 Four MCOs            FFS          Four MCOs          FFS
 Medicare Beneficiaries               258,452       34,288,372        282,809       33,509,382
 Beneficiaries receiving                3,181        1,424,700          4,378        1,391,600
 chiropractic services
 % of beneficiaries receiving           1.23%           4.16%          1.55%            4.15%
 chiropractic services
 Number of treatments                  30,605       12,345,001         50,981       12,269,909
 received
 Number of treatments per                 9.62              8.67        11.64               8.82
 beneficiary
Page 3 - Nancy-Ann Min DeParle

ACCESS

More Medicare beneficiaries used chiropractic services when an MCO allowed direct access
versus requiring a physician referral. To illustrate, almost 2 percent of the beneficiaries with
direct access options used chiropractic services for 1995 and 1996. Conversely, less than 0.5
percent of the beneficiaries with physician referral requirements used chiropractic services during
the same time period. Of the four MCOs that provided chiropractic utilization data, two
allowed direct access and two required physician referrals.

Overall, the policies for accessing chiropractic services varied among the seven MCOs that
responded to our survey. Three MCOs allowed direct access to chiropractic services, and the
remaining four required physician referral.

Policies also varied among the three MCOs that allowed direct access to chiropractic service.
Two of the three allowed an unlimited number of treatments with appropriate medical
documentation. The third MCO limited direct access by beneficiaries to 12 treatments per year.
However, the MCO could authorize additional treatments.

Conversely, the four MCOs that required physician referral had fairly consistent policies. To
illustrate, all four allowed primary care physicians (PCPs) to specify the number of chiropractic
treatments without prior authorization or review from the MCO.

COVERED SERVICES

All seven MCOs covered manual manipulation of the spine to correct a subluxation, as required
by HCFA. Additionally, one MCO expanded its chiropractic benefit to include relief of axial
skeletal muscle pain when authorized by a PCP.

Six of the seven MCOs required X-rays to validate the medical necessity of chiropractic
services. The X-rays had to show subluxation of the spine to justify chiropractic service. The
six MCOs paid for the X-rays. The remaining MCO did not require X-rays.

CO-PAYMENTS

Six MCOs required a co-payment to access chiropractic services. The seventh MCO did not
require a co-payment.

The co-payments required by six of the MCOs, ranged from $3-$15. Five of the six MCOs said
their co-payment for chiropractic service was the same as that for other types of services offered
in their plans. The sixth MCO said its co-payment for chiropractic service was lower than what
it required for other types of services.
Page 4 - Nancy-Ann Min DeParle

POST PAYMENT REVIEWS

Five of the seven MCOs conducted utilization or post payment reviews. Some of the items
reviewed were chiropractic billing, corroboration of medical necessity, patient satisfaction,
communication between chiropractors and PCPs, and number of chiropractic visits per year.
Based on such reviews, one of the five MCOs had denied payments to chiropractors. Another
MCO had referred 48 chiropractors to the FBI for investigation of fraudulent activities. At the
time we prepared this report, the 48 chiropractors were still under investigation. None of the
other MCOs had referred chiropractors for investigation.

                                        ----   ----   ----   ----

We hope that you find this information responsive to your request. Please do not hesitate to call
me or George Grob, Deputy Inspector General for Evaluation and Inspections, or have your
staff call Mary Beth Clarke at (202) 619-2481 with any comments or questions you wish to
share.


cc:    Robert Berenson
       Director, Center for
         Health Plans and Providers

       Kathy Buto
       Deputy Director, Center for
         Health Plans and Providers

       Tom Gustafson

       Deputy Director

       Office of Strategic Planning 

